INVESTIGATIVE MEMORANDUM ON
MANAGEMENT ISSUES (G-376)
                                                                   October 27, 2003

To:    Kenneth Fogash
       James McConnell

From: Walter Stachnik

Re:    Web-Based E-Mail Accounts (OIG-376)

During several investigations recently conducted by the Office of Inspector General
(including OIG-376), it came to our attention that the employees under investigation had
routinely (i.e., almost daily) accessed web-based e-mail accounts from Commission
computers. These employees informed us that they believed that the majority of
Commission staff routinely accessed web-based e-mail accounts from Commission
computers.

Commission staff have previously been informed in e-mail messages and in training
sessions that access to web-based e-mail accounts from SEC computers is prohibited in
order to guard against viruses. However, we found during our investigations that staff
appear to be confused as to whether accessing web-based e-mail accounts from
Commission computers is permitted. This confusion appears to be due, at least in part, to
e-mails informing employees that SEC access to web-based e-mail services, such as
Hotmail, would be blocked until anti-virus software was updated. Staff told us that they
assumed that, once the block was removed, they would be permitted to access web-based
e-mail accounts from Commission computers.

Due to the current confusion among staff concerning web-based e-mail accounts,
Commission controls in this area should be improved.

Recommendation A

The Office of Information Technology, in consultation with the Office of Executive
Director, should consider placing a permanent block that would prevent Commission
employees from accessing web-based e-mail services from Commission computers.
Alternatively, the Commission policy prohibiting employees from accessing web-based
e-mail accounts from Commission computers should be clarified and issued to all staff.

OIT provided comments in response to a draft of this memorandum. See Attachment 1.
In accordance with the above recommendation, OIT has considered whether it should
place a permanent block on access to web-based e-mail accounts from Commission
computers and has determined that a complete block of access to web-based e-mail
accounts is not warranted. Moreover, at this time, OIT does not have the ability to make
granular restrictions on use of web-based e-mail. In addition, OIT has complied with the
alternative recommendation above by issuing a notice to staff regarding the use of web-
based e-mail. See Attachment 2.

cc:    Darlene Pryor
       Peter Derby
       Mark Brickman




                                                                                       2
